     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

October 14, 2011

Report Number: A-05-11-00086

Mr. Blair W. Todt
Senior Vice President and Chief Compliance Officer
WellCare Health Plans, Inc.
8735 Henderson Road
Renaissance One, Third Floor
Tampa, FL 33634

Dear Mr. Todt:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Institutional Medicare Beneficiaries’ Minimum
Data Set Classification for Harmony Health Plan of Illinois, Inc. (Contract Number H1416) for
Calendar Year 2008. We will forward a copy of this report to the HHS action official noted on
the next page.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-11-00086 in all correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Blair Todt


cc:

Mr. Christopher Price
Director Compliance Audit and Monitoring
WellCare Health Plans, Inc.
8735 Henderson Road
Renaissance One, Third Floor
Tampa, FL 33634

HHS Action Official:

Timothy B. Hill, Deputy Director
Centers for Drug and Health Plan Choice (CPC)
Centers for Medicare & Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF INSTITUTIONAL MEDICARE
BENEFICIARIES’ MINIMUM DATA SET
   CLASSIFICATION FOR HARMONY
   HEALTH PLAN OF ILLINOIS, INC.
  (CONTRACT NUMBER H1416) FOR
      CALENDAR YEAR 2008



                         Daniel R. Levinson
                          Inspector General

                           October 2011
                           A-05-11-00086
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov



Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

Medicare Advantage Program

Under the Medicare Advantage (MA) program, the Centers for Medicare & Medicaid Services
(CMS) makes monthly capitated payments to Medicare Advantage (MA) Organizations for
beneficiaries enrolled in the organizations’ health care plans.

Payments to Medicare Advantage Organizations

For capitated payments to MA Organizations, CMS uses a risk adjustment approach with
separate models for long-term institutional beneficiaries and beneficiaries residing in the
community. Separate models are necessary because there are significant cost differences
between the traditional community-based MA beneficiary population and the long-term
institutional beneficiary with the same disease profile. An adjustment for the place of residence
improves the payment accuracy of risk adjustment. Federal regulation (42 CFR § 422.2) defines
institutionalized, for the purpose of defining a special needs individual, as an MA eligible
individual who continuously resides or is expected to continuously reside for 90 days or longer
in a long-term care facility such as a skilled nursing facility (SNF) or nursing facility (NF). A
community resident MA enrollee is a beneficiary who generally resides in the community such
as his/her home, an assisted living facility, or in an institution for less than 90 days.

Skilled Nursing Facility and Nursing Facility Institutional Reporting

Sections 1819 and 1919 of the Social Security Act (the Act) and implementing regulation (42
CFR § 483.20) provide that SNFs and NFs participating in Medicare and Medicaid must assess
the clinical and functional status of residents and submit assessment records to States for
inclusion in the CMS national Minimum Data Set (MDS) Repository.

Once SNFs and NFs complete and send assessments to the States, CMS uses this MDS data to
identify resident status and determine an appropriate payment. Once beneficiaries are identified
as institutionalized, they remain in long-term institutional status until discharged home for more
than 14 days. Depending on the resident status, CMS uses the appropriate institutionalized or
community payment rate. The accuracy and completeness of the assessment data determines the
correct MA payment rate.

Harmony Health Plan of Illinois, Inc.

Harmony Health Plan of Illinois, Inc. (Harmony), a wholly-owned indirect subsidiary of
WellCare Health Plans, Inc., an organization headquartered in Tampa, Florida, entered into
contract number H1416 with CMS as a point-of-service health maintenance organization. Our
audit covered all plans under the contract that identified 62 unique Medicare beneficiaries as
having institutional status during the period January 1, 2008, through December 31, 2008.
During this period, CMS paid Harmony $873,329 for these 62 unique Medicare beneficiaries.


                                                1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether all 62 beneficiaries, for which Harmony received
Medicare capitated payments using the long-term institutional resident’s model, were correctly
classified as institutional.

Scope

We reviewed all 62 institutionalized Medicare beneficiaries for which Harmony received
Medicare capitated payments totaling $873,329 during our audit period of January 1, 2008,
through December 31, 2008. We limited our scope to reviewing MDS documentation and other
nursing home documentation in determining whether beneficiaries were correctly classified as
institutional and did not review Medicare beneficiaries’ risk scores used in calculating CMS
payments to Harmony.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State regulations and guidelines,

   •    held discussions with Harmony officials to obtain an understanding of its policies and
        procedures for institutional reporting,

   •    held discussions with State of Illinois MDS officials to gain an understanding of MDS
        reporting,

   •    identified all 62 institutionalized Medicare beneficiaries from Harmony’s contract
        number H1416,

   •    reviewed MDS data provided by CMS for the 62 beneficiaries, and

   •    visited nursing homes for the 62 beneficiaries and reviewed MDS documentation to
        determine if the beneficiaries met Federal criteria to be correctly classified as
        institutional.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.




                                                2
                                    RESULTS OF AUDIT

We determined that all 62 beneficiaries reviewed were correctly classified as institutional during
our audit period of January 1, 2008, through December 31, 2008. As a result, this report contains
no recommendations.




                                                3
